NO. 20-1088
IN THE

Supreme Court of the United States
DAVID AND AMY CARSON, AS PARENTS AND NEXT FRIENDS OF
O.C., AND TROY AND ANGELA NELSON, AS PARENTS AND NEXT FRIENDS
OF A.N. AND R.N.,

Petitioners,

v.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS
COMMISSIONER OF THE MAINE DEPARTMENT OF EDUCATION,

Respondents.
PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby certify that
on this tenth day of September 2021, I have served three (3) true copies
of the Brief for Pioneer Institute as Amicus Curiae in Support of
Petitioners by priority mail, postage prepaid upon:
Attorneys for Petitioners
Michael Eugene Bindas
Institute for Justice
600 University Street, Suite 1730
Seattle, WA 98101
mbindas@ij.org
206-957-1300
Party name: David Carson, et al.
Attorneys for Respondent
Sarah Ann Forster
Office of the Attorney General
6 State House Station
Augusta, ME 04333
sarah.forster@maine.gov
207-626-8866
Party name: A. Pender Makin

Signed under the pains and penalties of perjury,
/s/

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:
/s/ George

D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

